                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             Th e Inspector General
                                                             Washington. D.C. 20230


March 20, 20 13

The Honorable Henry A. Waxman                The Honorable Sheldon Whitehouse
Co-Chair                                     Co-Chair
Bicameral Task Force on Climate Change       Bicameral Task Force on Climate Change
Ranking Member                               Chairman
Committee on Energy and Commerce             Subcommittee on Oversight
2322A Rayburn House Office Building          41 0 Dirksen Senate Office Building
Washington, DC 20515                         Washington, DC 2051 0

The Honorable Edward J. Markey               The Honorable Benjamin L. Cardin
Co-Chair                                     Co-Chair
Bicameral Task Force on Climate Change       Bicameral Task Force on Climate Change
Ranking Member                               Chairman
Committee on Natural Resources               Subcommittee on Water and Wildlife
1329 Longworth House Office Building         41 0 Dirksen Senate Office Building
Washington, DC 20515                         Washington, DC 2051 0

Dear Chairmen Waxman, Whitehouse, Markey, and Cardin:

This letter responds to your February 25, 20 13, request to review the Commerce
Department's policies, environmental programs, and activities to carry out requirements that
federal agencies address climate change.

To accomplish this review, we se nt a me morandum to the Department's Office of General
Counsel, requesting that they identify existing requirements to address climate change in law,
r egulation, executive order, and other directives applicable to Commerce. Once we receive
this, we will assess whether Commerce is meeting those requirements and, if not, make
recommendations for improvement.

We will then address the second part of your request, which asked us to assess (I)
Commerce's authorities to reduce em issions of heat-trapping pollution, (2) its authorities to
make the nation more resilient to the effects of climate change, and (3) the most effective
additional steps that could be taken to reduce emissions and strengthen resiliency.

We are commencing work immediately and are currently evaluating the Department's efforts
to reduce energy when renovating buildings, such as our headquarters: the Herbert C. Hoover
Building in Washington, DC. We are currently reviewing the Department's Strategic
Sustainability Performance Plan and its Greenhouse Gas Inventory Management Plan to evaluate
the Department's efforts to reduce greenhouse gases, as outlined in Executive Order 1351 4.
If you have any questions, please do not hesitate to contact me at (202) 482-4661.

Sincerely,




Todd J. Zinser
